WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Antonio Lozano Solis

20-5130

David Shinn

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
[1] Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0. I am a member of the Bar of the Supreme Court of the United States.
E] I am not presently a member of the Bar of this Court. Should a response be requested, the respdn'se
will be filed by a Bar member.
Signature
Date.
(Type or print) Name

Myles A. Braccio
D] Mr.

Firm

[1] Mrs.

El Miss

Arizona Attorney General

Address

2005 N. Central Ave.

City & State
Phone

[1] Ms.

Phoenix, Arizona

(602) 542-4085

Zip
Email

85004-2926

Myles.Braccio@azag.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Antonio Lozano Solis

RECEIVED
AUG - 5 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

